     June 13, 2003




Logistics

Law Enforcement Support Office
Excess Property Program
(D-2003-101)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Information and Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CMIS                 Counter-Narcotics Management Information System
DAISY                Defense Reutilization and Marketing Service Automated
                       Information System
DLA                  Defense Logistics Agency
DRMO                 Defense Reutilization and Marketing Office
DRMS                 Defense Reutilization and Marketing Service
GAO                  General Accounting Office
LESO                 Law Enforcement Support Office
WEBDOCS              Web Enabled Document Conversion System
               Office of the Inspector General of the Department of Defense
Report No. D-2003-101                                                                           June 13, 2003
       (Project No. D2002LD-0217)

                                 Law Enforcement Support Office
                                    Excess Property Program

                                           Executive Summary

Who Should Read This Report and Why? DoD personnel who are involved in the
management of donation programs for DoD excess property should read this report. The
report discusses the management of the 1033 Program that provides excess property to
Federal and State law enforcement activities.

Background. We performed this audit in response to a referral made by the General
Accounting Office (GAO) to the Defense Hotline. GAO requested that we perform further
review and reconciliation of transactions that it partially analyzed during a review of DoD
excess property donations, including those made under the 1033 Program.1 We limited the
scope of our audit to a reconciliation of the transactions identified by GAO because the
Defense Logistics Agency Internal Review Office was also performing an audit of the
operations of the 1033 Program. (See Appendix C for discussion of the ongoing audit by
the Defense Logistics Agency Internal Review Office.) The 1033 Program was established
by the provisions of Public Law 104-201, “National Defense Authorization Act for Fiscal
Year 1997,” September 23, 1996, section 1033, “Transfer of Excess Personal Property to
Support Law Enforcement Activities.” Section 1033 authorizes the Secretary of Defense to
issue excess DoD personal property “as is” to Federal and State law enforcement activities
(agencies with arrest and apprehension powers)2 with preference given to those law
enforcement agencies that will use the property for counterdrug and counterterrorism
activities. Under the 1033 Program, law enforcement agencies request, through their State
coordinator and the Law Enforcement Support Office, DoD excess property managed by
the Defense Reutilization and Marketing Offices. In FY 2002, 284,480 items, valued at
about $118 million,3 were issued from the DoD to State and local law enforcement
agencies. GAO identified 2,636 discrepancies between the property issue records in the
Defense Reutilization and Marketing Service Automated Information System (DAISY)
database and the approval records maintained by the Law Enforcement Support Office in
the Counter-Narcotics Management Information System database. The property approval
and issue records were from October 1996 through August 2000. The Law Enforcement
Support Office and the Defense Reutilization and Marketing Service are Defense Logistics
Agency organizations.

Results. Law Enforcement Support Office and Defense Reutilization and Marketing
Service records were not reliable to account for DoD excess property issued from
October 1996 through August 2000 through the 1033 Program. We selected

1
    1033 refers to the section of the public law that created the program.
2
    The term “law enforcement agency” will be used throughout this report to mean “law enforcement
     activity” as used by Public Law 104-201, section 1033.
3
    Dollar values for excess property throughout this report are the original acquisition cost of the items.
148 transactions from the GAO-provided DAISY transaction records and the
Counter-Narcotics Management Information System transaction records. Of the selected
148 excess property transactions, 39 (26 percent4) could be reconciled between the
approval records in the Counter-Narcotics Management Information System database and
the issue records in the DAISY database. The remaining 109 transactions (74 percent4)
could not be reconciled between the two databases.

            •   66 transactions (45 percent4) had undocumented differences between the
                transaction quantities of property the Law Enforcement Support Office
                approved for release and the transaction quantities the Defense Reutilization
                and Marketing Office issued.

            •   31 transactions (21 percent4) had missing Law Enforcement Support Office
                transaction approval records.

            •   12 transactions (8 percent4) had data entry errors in Law Enforcement Support
                Office transaction approval records as compared to Defense Reutilization and
                Marketing Office issued property transactions.

As a result, the Defense Reutilization and Marketing Service was distributing DoD
excess property to law enforcement agencies without the accountability necessary to
ensure that the property issued was authorized. The Defense Logistics Agency could
improve the reliability and accountability of property records for the 1033 Program, and
correct the material management control program weakness, by implementing guidance
that includes written standard operating procedures and by requiring that the Law
Enforcement Support Office use the automated processing system for requisitioning,
approving, and issuing items. For details of the audit results, see the Finding section of
the report.

Management Comments. The Director for Logistics Operations, Defense Logistics
Agency concurred with the finding and the recommendations; however, the Director did
not address the recommended revision of Defense Reutilization and Marketing Service
Instruction 4160.14. We request that the Defense Logistics Agency provide additional
comments on recommendation 2.a. in response to the final report by July 14, 2003. See
the finding section and the Management Comments section for the complete text of the
comments.




4
    Percentage for the selected transactions does not generalize to the universe of the two GAO data files.



                                                        ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              3

Finding
     Law Enforcement Support Office Excess Property Program Controls    4

Appendixes
     A. Scope and Methodology                                          11
         Management Control Program Review                             13
         Prior Coverage                                                13
     B. Manual and Automated Requisitioning Process                    14
     C. Defense Logistics Agency Internal Review Objectives            17
     D. Report Distribution                                            18

Management Comments
     Defense Logistics Agency                                          21
Background
            We performed this audit in response to a referral made by the General Accounting
            Office (GAO) to the Defense Hotline. GAO requested that we perform further
            review and reconciliation of transactions that it partially analyzed during a review
            of DoD excess property donation programs, including donations made under the
            1033 Program.1 The 1033 Program was established by the provisions of Public
            Law 104-201, “National Defense Authorization Act for Fiscal Year 1997,”
            September 23, 1996, section 1033, “Transfer of Excess Personal Property to
            Support Law Enforcement Activities.” Section 1033 authorizes the Secretary of
            Defense to issue excess DoD personal property “as is” to Federal and State law
            enforcement activities (agencies with arrest and apprehension powers)2 with
            preference given to those law enforcement agencies that will use the property for
            counterdrug and counterterrorism activities. GAO identified discrepancies
            between 2,636 property issue records maintained by the Defense Reutilization and
            Marketing Offices (DRMOs) in the Defense Reutilization and Marketing Service
            (DRMS) Automated Information System (DAISY) database and the approval
            records maintained by the Law Enforcement Support Office (LESO) in the
            Counter-Narcotics Management Information System (CMIS) database for
            October 1996 through August 2000. CMIS is a database that contains DoD
            excess property transaction records of donations made to law enforcement
            agencies under the 1033 Program. DAISY is an automated system used by
            DRMOs to manage inventory transactions related to receipt, distribution, and
            disposal of DoD excess property and scrap.

            Origin of the 1033 Program. The 1033 Program began in FY 1990 as the
            1208 Program.3 Under the 1208 Program, the issuance of excess DoD property to
            law enforcement agencies was limited to Federal and State law enforcement
            agencies for use in counterdrug activities. From October 1989 through
            September 1995, the Deputy Assistant Secretary of Defense (Drug Enforcement
            Policy and Support) administered the 1208 Program through LESO regional
            logistics support offices. In 1995, the administration of the 1208 Program was
            transferred to the Defense Logistics Agency (DLA). In October 1996, the
            1033 Program replaced the 1208 Program and opened participation in the
            program to all Federal and State law enforcement activities. In FY 1999, DLA
            completed the consolidation of regional logistics support offices that had
            administered the 1208 and 1033 Programs into a single office, LESO at Fort
            Belvoir, Virginia. LESO was funded by the Office of the Assistant Secretary of
            Defense (Counter-Narcotics). Although the 1033 Program was administered by
            DLA, the Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
            provided the personnel to administer the program. Beginning in October 2003,
            DLA is to assume full responsibility for funding and civilian personnel for LESO
            and the administration of the 1033 Program. According to LESO, the

1
    1033 refers to the section of the public law that created the program.
2
    The term “law enforcement agency” will be used throughout this report to mean “law enforcement
     activity” as used by Public Law 104-201, section 1033.
3
    Section 1208 of the FY 1990 and FY 1991 Defense Authorization Act, Public Law 101-189, established
     the 1208 Program.



                                                         1
            1033 Program provides over 17,000 State and local law enforcement agencies
            with a way to obtain DoD excess property in support of their missions. The
            LESO weekly activity report, dated December 6, 2002, stated that for FY 2002,
            284,480 items, valued at about $118 million (original acquisition cost4), were
            issued from DoD to State and local law enforcement agencies. Acquisition cost is
            the amount paid for property, including transportation costs, when originally
            acquired.

            Program Participation. Under the 1033 Program, law enforcement agencies
            request, through their State coordinator and LESO, DRMO-managed property that
            DoD Components have determined to be in excess of DoD requirements. During
            October 1996 through August 2000 a manual process was used to request, approve,
            and issue DoD property under the 1033 Program. (Appendix B details the manual
            request and approval process.) Criteria established by Public Law 104-201,
            section 1033, for participation in the 1033 Program were as follows.

                     •    The property must be drawn from existing “as is” DoD stock.
                     •    The transfer must be made without any expenditure of DoD funds.

            Criteria established by each State’s memorandum of agreement5 with DLA for
            participation in the 1033 Program were as follows.

                     •    Each State must explain how the equipment will be used, and the
                          equipment must be used by the State within 1 year of transfer.
                     •    Property cannot be sold, leased, rented, exchanged, bartered, used to
                          secure a loan, or used to supplement the agency’s budget.

            Roles and Responsibilities. DLA is responsible for the disposal of DoD excess
            personal property. DoD Manual 4160.21-M, “Defense Materiel Disposition
            Manual,” August 18, 1997, defines personal property as “property of any kind or
            interest except real property and records of the Federal Government.”6 DRMS is
            the DLA component that administers the excess property disposal program
            through oversight of the DRMOs. DRMOs collect and redistribute property that
            DoD Components have determined to be in excess of requirements.

            LESO is the DLA component responsible for review and approval of law
            enforcement agency requests for DoD excess property managed by the DRMOs.
            DLA Directive 4160.10, “Transfer of Excess Personal Property for Law
            Enforcement Activities,” May 30, 2000, establishes the responsibilities for the
            administration of the excess property program (the 1033 Program). The Director,
            DLA serves as the designated agent for the Secretary of Defense for management
            oversight of the 1033 Program. The directive calls for DLA to issue program
            guidance in an agency instruction. LESO determines the priority and suitability
4
    Dollar values for excess property throughout this report are the original acquisition cost of the items.
5
    The memorandum of agreement sets forth the terms and conditions of the relationship for issuing excess
     property determined to be suitable for law enforcement purposes. Memorandums of agreement are
     generally executed with State agencies, but not Federal agencies.
6
    Unless otherwise stated, references to excess property will mean DoD excess personal property throughout
    this report.



                                                          2
    of property requests, develops agreements with State coordinators, communicates
    periodic updates to program participants, and holds national program conferences.
    In addition, the Directive defines the role of the State coordinator. The State
    coordinator is Governor-appointed and is authorized to enter into a memorandum
    of agreement with DLA. DRMS is to provide management oversight for property
    issued under the program. DRMOs are to issue excess property approved for
    release under the program.


Objectives
    Our overall objective was to evaluate the excess property program (the
    1033 Program) administered by DLA. Specifically, the audit was to determine
    whether adequate controls were in place to account for DoD property issued to
    State and local law enforcement agencies under the 1033 Program, and whether
    the property issued was properly authorized. However, the DLA Internal Review
    office is also performing an audit of the operations of the 1033 Program. Because
    of the ongoing DLA Internal Review audit, we limited the scope of our audit to a
    reconciliation of the transactions identified by GAO in the two data files provided
    to us with DRMS and LESO supporting documentation. We also reviewed the
    management control program as it related to the overall objective. See
    Appendix A for a discussion of the scope and methodology, our review of the
    management control program, and prior coverage related to the objectives. See
    Appendix C for a discussion of the ongoing audit by the DLA Internal Review
    office.




                                         3
                     Law Enforcement Support Office Excess
                     Property Program Controls
                     LESO and DRMS records were not reliable in accounting for DoD excess
                     property issued from October 1996 through August 2000 under the
                     1033 Program. Of the selected 148 DoD excess property transactions,7 we
                     were able to reconcile 39 (26 percent8). For the remaining 109 transactions,
                     we could not validate the data contained in the CMIS and DAISY databases,
                     which had numerous errors. Specifically, the 109 transactions could not be
                     reconciled because:

                              •    66 transactions (45 percent8) had undocumented differences
                                   between the transaction quantities of property LESO approved
                                   for release and the transaction quantities the DRMO issued;

                              •    31 transactions (21 percent8) were missing LESO transaction
                                   approval records; and

                              •    12 transactions (8 percent8) had data entry errors in LESO
                                   transaction approval records as reconciled with DRMO issued
                                   property transactions and other DRMO supporting records.

                     The databases could not be reconciled because LESO did not implement
                     policies and procedures that ensured visibility and complete audit trails
                     from the request for excess property to the issuance of the property to a
                     law enforcement agency. In addition, DRMS did not document
                     justifications for increases in quantities of excess property distributed to
                     law enforcement agencies. As a result, DRMS was distributing DoD
                     excess property to law enforcement agencies without the accountability
                     necessary to ensure that the released property had the proper authorization.


GAO-Provided 1033 Program Data
            During the GAO review for Report No. GAO-02-75, “Defense Inventory:
            Control Weaknesses Leave Restricted and Hazardous Excess Property Vulnerable
            to Improper Use, Loss, or Theft,” January 25, 2002, GAO collected data and
            identified discrepancies between the CMIS and DAISY databases of excess
            property issued under the 1033 Program from October 1996 through August 2000.
            The property transactions in the databases were limited to items such as
            ammunition, band instruments, construction material, firefighter equipment,
            furniture, office supplies, and weapons. GAO compared property issue records
            maintained by the DRMOs in the DAISY database with records maintained by
7
    The 148 selected transactions (totaling $2,040,703) consisted of a random sample of 125 transactions
     (totaling $239,349) and a judgmental sample of 23 high dollar-value transactions (totaling $1,801,354)
     from the data files provided by GAO. See Appendix A for a detailed discussion of the selection
     methodology.
8
    Percentage for the selected transactions does not generalize to the universe of the two GAO data files.



                                                         4
           LESO in the CMIS database. GAO identified 2,636 discrepancies, specifically,
           2,219 excess property transactions, valued at about $2.9 million, that were
           recorded in DAISY but were not recorded in the CMIS database (DAISY-only
           data), and 417 excess property transactions, valued at $1.6 million, that were
           recorded in both CMIS and DAISY databases, but the transaction records in the
           two databases did not match on the quantity of items issued. Prior to our
           reconciliation, the GAO file identified a greater quantity of excess property was
           recorded as having been released to law enforcement agencies in the DAISY
           database than was recorded in CMIS (DAISY-CMIS mismatched data). We
           attempted to reconcile the discrepancies in both the DAISY-only and
           DAISY-CMIS mismatched data files.


Accountability Controls
           LESO and DRMS records were not reliable in accounting for DoD excess
           property issued through the 1033 Program. We selected 148 transaction records
           from the GAO-provided DAISY-only and the DAISY-CMIS mismatched data
           files to reconcile discrepancies between the records in the DAISY and CMIS
           databases. That group of transactions consisted of statistical samples and
           judgmental samples that focused on high dollar transactions. We determined that
           the data contained in the GAO files were not sufficiently supported by DAISY
           and CMIS records to use as the basis for making statistical projections. As a
           result, we combined the two sample groups for purposes of our review. The
           selected records consisted of 80 transactions valued at about $0.9 million from the
           DAISY-only data file, and 68 transactions valued at about $1.1 million from the
           DAISY-CMIS mismatched data file. (See Appendix A for a discussion of the
           selection methodology.) We determined that 26 percent8 of the selected records
           (39 of 148 transactions) could be reconciled between the DRMO and LESO
           records. However, 74 percent8 of the selected records (109 of 148 transactions)
           could not be reconciled between the DRMO and LESO records because of
           quantity differences, missing transaction records, and data entry errors.
           Quantity Difference. We compared the selected DRMO excess property
           transaction with CMIS database transactions and LESO supporting documentation
           and determined that 66 of the 148 selected transactions (45 percent8) had
           differences in the quantity released to the law enforcement agency by the DRMO
           and the quantity approved for release according to LESO documents. DRMO
           released a greater quantity for 63 of the transactions and a smaller quantity for
           three of the transactions.

           We determined that DRMS could not provide documents that support the reasons
           for the quantity differences in the 66 transactions. We requested supporting
           documents for all 148 selected transactions from the October 1996 through
           August 2000 timeframe, but DRMS could not provide hardcopy documentation
           for 138 transactions because the records retention policy at DRMS is only
           3 years.9 The 10 DRMO transactions with supporting documentation were for
9
    The DRMS policy on records retention, DRMS Instruction 4160.14, volume IV, “Policy and Procedures in
     Disposal Operations for Property Accounting,” chapter 9, “Records Maintenance,” June 1998, requires
     that source documents be kept in hardcopy for 3 years.


                                                     5
            FY 2000 and did not have notations indicating the reason for the change in
            quantity. Because of the lack of supporting documents, we used an alternative
            approach to test the reliability of the DRMO transaction data contained in
            DAISY. We obtained a disposal turn-in history report from the DRMS
            Management Information Distributions and Access System10 for each transaction
            selected. We found that the history report supported the existence of DRMO
            transaction quantity data and was a reliable source for comparison purposes.

            According to both DRMS and LESO officials, there were several factors that might
            account for the discrepancies between the DRMO and the LESO transaction
            records. According to those officials, law enforcement agencies would sometimes
            arrive at the DRMO to pick up approved property and would request additional
            quantities at that time. DRMS officials acknowledged that before November 2000,
            DRMOs would issue the additional quantities to law enforcement agencies, even
            though those quantities were in excess of what LESO had approved for release. In
            November 2000, DRMS issued a reminder to DRMOs reiterating the policy that
            DRMOs were to call LESO and obtain verbal approval before issuing any
            additional quantities to law enforcement agencies. Because the policy did not
            require LESO to document its approval for the additional quantity, there was no
            traceable evidence in DRMS or LESO records to indicate the approval of the
            additional quantities. The verbal approval policy also bypassed another property
            control—that of the State coordinator—who did not review the local law
            enforcement agency request for additional quantities.

            Batch-lotting11 to facilitate the management of many low dollar-value items at the
            DRMOs introduced another quantity accountability problem. DRMS
            Instruction 4160.14, volume IV, “Policy and Procedures in Disposal Operations for
            Property Accounting,” chapter 2, “Receipts,” March 2002, allows DRMOs to
            batch-lot multiple disposal turn-in documents of similar items, such as pants and
            shirts, under a single disposal turn-in document number. For the quantity field of
            the single disposal turn-in document, DRMOs enter the number of multiple disposal
            turn-in documents that were consolidated by the single form, rather than the number
            of items to be disposed of. When a law enforcement agency picks up property that
            is part of a batch-lot, the DRMO records do not reflect the number of items picked
            up. For example, in FY 2000, the DRMO located at Holloman Air Force Base,
            New Mexico, issued six units of batch-lotted miscellaneous office furniture, with an
            acquisition value of $900, to a law enforcement agency. LESO had approved the
            law enforcement agency’s request for two items from a batch-lot of miscellaneous
            office furniture, valued at $300. Although both the DRMO and LESO had
            supporting documentation for the transaction, the documents did not state the
            number of items in the batch-lots or the reason for the quantity difference in what
            was issued versus what was approved.

            Missing LESO Transactions. LESO could not provide documentation (hardcopy
            or CMIS electronic entry) for 31 of the 148 selected transactions. We requested
            supporting documentation from LESO for the DRMO excess property transactions.

10
     The Management Information Distribution and Access System is a DRMS system that provides a single
     access point to the complete DAISY inventory and transaction records that provide an audit trail for
     property and scrap movement.
11
     Batch-lotting is the physical grouping together of individual receipts of low dollar-value property.


                                                         6
     According to LESO officials, they did not have a records retention policy and could
     not account for the missing electronic or hardcopy documentation. However, DLA
     officials explained that organizational circumstances might have contributed to the
     missing documentation. Before 1999, DLA administered the 1033 Program
     through multiple regional support offices that were a holdover from the
     1208 Program. LESO officials stated that they did not believe all records
     (electronic and hardcopy) were transferred to LESO when the regional support
     offices were consolidated into a single office in 1999.

     LESO Data Entry Errors. Of the 148 transactions selected, 12 could not be
     reconciled because of data entry errors in the CMIS database. We compared
     DAISY transaction data for the selected items with CMIS data and the LESO
     supporting documentation. The CMIS transaction records had data entries, such
     as disposal turn-in document numbers, requisition numbers, or national stock
     numbers, which did not match the information in DAISY.


Policies and Procedures
     DLA did not establish and implement policies and procedures for the 1033 Program
     that ensured visibility of DoD property issued to law enforcement agencies. For the
     period of October 1996 through August 2000, the 1033 Program operated under a
     manual process that did not provide an adequate audit trail from the request for
     excess property to the issuance of the property. Additionally, DLA did not have a
     written policy requiring the reconciliation of LESO and DRMS transaction records
     to ensure accountability.

     DLA Policy. Before the May 2000 DLA Directive 4160.10, DLA and LESO had
     no formal written guidance on the administration of the 1033 Program. Although
     DLA Directive 4160.10 established the 1033 Program responsibilities, neither
     DLA nor the Directive provided LESO with instructions on the operations of the
     1033 Program. DLA Directive 4160.10 assigned DLA responsibility for
     operations and tasked LESO with administering the program by developing
     priorities for processing requests and by determining the suitability of property
     requests. As of March 2003, neither DLA nor LESO had issued written program
     guidance detailing the operation of the 1033 Program.

     Undocumented Processes. From October 1996 through August 2000, a manual
     process was used to request, approve, and issue excess property. LESO did not
     provide guidance or procedures, such as approval criteria or accountability
     requirements, that documented the manual requisitioning process. However,
     LESO personnel described the manual requisitioning process and a partially
     implemented automated requisitioning process that was being used to request,
     approve, and issue excess property. See Appendix C for a detailed explanation of
     the manual and automated requisitioning processes.

     Manual Process Audit Trail. The manual process described by LESO personnel
     consisted of three separate processes that were not adequately linked together to
     ensure full visibility and accountability for property requested, approved, and
     issued. The process starts when a law enforcement agency faxes a request for


                                         7
    excess property to the applicable State coordinator. The State coordinator reviews
    the request and decides whether to approve, approve with modification, or reject
    the request. If the request is approved, the State coordinator faxes it to LESO for
    review and approval. LESO may approve, approve with modifications, or reject
    the request. If LESO approves the request, an approval document is generated
    and faxed to the requesting law enforcement agency through the State
    coordinator. The law enforcement agency uses the approved form to pick up the
    requested property at the DRMO. Under the manual system, once LESO
    approves a request for property, DRMO has no accountability requirements for
    reporting details to LESO, such as who picked up property or the quantity of
    property issued. Additionally, law enforcement agencies do not provide such
    information to LESO either. For example, in July 1997, a law enforcement
    agency requested three explosive ordnance disposal robots, valued at $50,000
    original acquisition cost per robot. Notations made on the LESO supplied
    supporting documentation by either the State coordinator or LESO reduced the
    quantity requested to one robot. LESO records for the quantity approved did not
    match the data entered in CMIS. The hardcopy documentation that LESO had to
    support the approval indicated that no disposal robots were approved for issue.
    However, the CMIS database showed that one robot was approved for issue to the
    law enforcement agency. In addition, DRMS data file information indicated that
    the DRMO had issued three disposal robots to the law enforcement agency.
    Because of the DRMS 3-year record retention policy, we could not determine
    how many of the robots were actually issued, nor who signed for them.
    Additionally, we could not determine whether the State coordinator or LESO
    made the change to the quantity originally requested.

    The lack of accountability and visibility for excess property also contributed to
    data errors identified earlier in this report. We could find no evidence that LESO
    had quality control procedures in place to verify any information entered in the
    CMIS database from requests or approval forms. Further, LESO did not conduct
    periodic reconciliations of LESO-approved and DRMO-issued property.
    According to LESO personnel, in late 2001, LESO began periodic reconciliations
    of the CMIS database with DAISY to ensure that quantities approved matched
    quantities issued. As of March 2003, LESO had not issued guidance on the
    reconciliation process.


Management Actions
    Both LESO and DRMS have ongoing initiatives to improve visibility and
    accountability for DoD excess property. Automation of the requisition, approval,
    and issuance process, and digital storage of source documents will improve
    visibility and accountability. However, further controls are needed.

    Impact of Automated System. In May 2002, LESO began implementing an
    automated requisition process—the DRMS and LESO Automated System. LESO
    planned to fully implement the automated requisition, approval, and issuance
    process by October 2003. Full implementation of the automated requisition
    process should address many of the accountability issues identified by our review.
    The DRMS and LESO Automated System provides an audit trail that documents


                                         8
each step in the approval process. The system tracks who made the request and
when; who at the State level and LESO reviewed the request and when; and
notations of all changes, denials, and approvals made during the requisition,
approval, and issuance process. Because of the automated process, the
opportunity for data entry errors is minimized.

Under the automated system, additional quantities of property can still be issued
to law enforcement agencies by DRMOs with the verbal approval of LESO.
However, the automated process provides DRMOs with the capability to adjust
the quantity issued and to annotate the reason the change was made. Although the
quantity can be adjusted to reflect what was actually issued by the DRMO, that
capability still circumvents the approval process. State coordinators are not
required to approve the change and LESO is not required to document its
approval of the change before the property is issued. As of March 2003, DRMOs
were requesting that LESO verbally approve the increased quantities, but the State
coordinators were not being consulted. The DRMO and LESO automated system
minimized data entry errors but did not correct the potential for discrepancies
between quantities issued and quantities approved because LESO had not
incorporated changes requiring approval documentation from State coordinators
and LESO, prior to DRMO issuing additional quantities.

We performed a limited test of 25 transactions to verify the potential for the
automated process to correct many of the weaknesses identified with the manual
process. For the period of October 15 to October 31, 2002, we selected all excess
property issuance to law enforcement agencies—527 transactions. We reviewed
25 out of the 527 transactions that had the same Federal supply codes as those
included in the GAO files. Of the 25 transactions, 18 were processed by the
manual system and seven were processed by the automated system. Of the
18 transactions processed by the manual system, nine transactions (50 percent8)
had data entry errors. None of the seven transactions processed through the
automated system had data entry errors or errors in the quantity issued compared
with the quantity approved.

Digital Storage of Source Documents. DRMS is in the process of developing a
new technology called Web Enabled Document Conversion System (WEBDOCS)
that will enable the electronic storage of source documents. DRMS
Instruction 4160.14, volume IV, chapter 9, requires that hardcopies of source
documents be kept for 3 years. As a result, records of who received the property
and any notations concerning additional quantities issued can only be accessed for
3 years. Using WEBDOCS, DRMO employees can scan property issue
documents, save them to a file, and retrieve the stored images at any time.
According to DRMS officials, WEBDOCS is in the early development stage and
has been tested at some DRMO sites. As of March 2003, WEBDOCS was being
used to scan, store and retrieve disposal turn-in documents, but the other types of
records to be scanned and the retention length of stored images was under
discussion.




                                     9
Recommendations, Management Comments, and Audit Response
    1. We recommend that the Director, Defense Logistics Agency develop and
    implement written standard operating procedures and guidance for the
    1033 Program that include:
          a. Procedures and criteria for approval and disapproval of law enforcement
    agency property requests and routine periodic reconciliations of databases.

           b. Written requisitions for additional quantities requested by law
    enforcement agencies that are in excess of the quantity originally approved
    by the Law Enforcement Support Office.

           c. Documented State and Law Enforcement Support Office approval
    of additional quantities requested by law enforcement agencies.

           d. Mandatory use of the automated processing system of the
    1033 Program for requisitioning, approving, and issuing items for the entire
    requisition process, including additional quantities.

    DLA Comments. The Director for Logistics Operations, DLA concurred, and
    stated that his office was developing a “One Book” that will be the “Corporate”
    repository for policies, processes, and procedures. The first iteration is expected
    by October 1, 2003, and will include the operating procedures and guidance for
    the 1033 Program.

    2. We recommend that the Director, Defense Reutilization and Marketing Service:
           a. Revise the Defense Reutilization and Marketing Service
    Instruction 4160.14 on batch-lotting to ensure that the quantity of items in a
    batch-lot are accurately identified.

           b. Implement digital storage (WEBDOCS) of DoD excess property
    issuance documentation. Specifically, the documentation signed by the
    individual from the law enforcement agency that picked up the property
    should be scanned into the database.

    DLA Comments. The Director for Logistics Operations, DLA commented on
    recommendation 2.a. stating that the Defense Reutilization and Marketing Service
    was addressing the quantity discrepancies associated with “issuing” items from
    batch-lots by implementing 100 percent usage of the automated processing system
    of the 1033 Program for requisitioning, approving, issuing, and adjusting quantities.
    In addition, the Director concurred in concept with recommendation 2.b., and stated
    that WEBDOCS is only one method of electronic storage being considered.

    Audit Response. The DLA comments to recommendation 2.a. were not fully
    responsive, but were responsive to the intent of recommendation 2.b. DLA did
    not address the revision of the Instruction on batch-lotting as part of its comments
    to recommendation 2.a. We request that DLA provide additional comments in
    response to the final report.



                                         10
Appendix A. Scope and Methodology
   We attempted to reconcile and validate DRMS and LESO DoD excess property
   transaction records associated with the 1033 Program from October 1996 through
   August 2000. To accomplish the audit objective, we reviewed public laws,
   directives, instructions, and manuals; we interviewed personnel from LESO and
   DRMS responsible for the approval and distribution of excess DoD property; and
   we reviewed selected transactions from the two 1033 Program data files provided
   by GAO.

   As part of the data collection for Report No. GAO-02-75, GAO identified
   discrepancies between the CMIS and DAISY databases concerning excess
   property issues made under the 1033 Program from October 1996 through
   August 2000. The property transactions were limited to items such as
   ammunition, band instruments, construction material, firefighter equipment,
   furniture, office supplies, and weapons. GAO compared property issue records
   maintained by the DRMOs in the DAISY database with records maintained by
   LESO in the CMIS database. GAO identified 2,219 excess property transactions,
   valued at $2,900,090, that were recorded in DAISY but were not recorded in the
   CMIS database (DAISY-only data file). GAO also identified 417 excess property
   transactions, valued at $1,648,541, that were recorded in both CMIS and DAISY
   databases, but the transaction records in the two databases did not match on the
   quantity of items issued. Prior to our reconciliation, the GAO file identified a
   greater quantity of excess property was recorded as released to law enforcement
   agencies in the DAISY database (DAISY-CMIS mismatched data file).

   We developed sample plans to review each of the two GAO-provided data files. We
   took a random sample of transactions from both the DAISY-only and the
   DAISY-CMIS mismatched data files. The DAISY-only sample contained
   75 transactions, valued at $42,143. The DAISY-CMIS mismatched sample contained
   50 transactions for which DAISY records showed that quantities issued exceeded the
   quantities in CMIS records. Discrepancies were valued at $180,603. We also
   developed a judgmental sample of high dollar-value transactions from both data files.
   We selected 5 transactions from the DAISY-only data file with a value of $50,000 or
   greater. We also selected an additional 18 transactions from the DAISY-CMIS
   mismatched data file with discrepancies that amounted to at least $9,000. We found
   that the data contained in the CMIS database and DAISY could not be validated and
   had numerous errors, which we discuss in the finding section of the report. Because
   available documentation was insufficient for base statistical projections, we combined
   the judgmental and statistically drawn samples. The selected transactions for the
   DAISY-only data file consisted of 80 transactions, valued at $919,053. The selected
   transactions for the DAISY-CMIS mismatched data file consisted of 68 transactions,
   valued at $1,121,650.

   We also developed a sample to evaluate the reliability of the DRMS and LESO
   automated requisitioning system. We reviewed excess property transaction
   records associated with the 1033 Program, completed by DRMOs during
   October 15 through October 31, 2002. From the total of 527 transactions
   completed during that period, we obtained DAISY printouts for 25 transactions
   with the same Federal supply codes as those included in the GAO databases to


                                       11
           verify the potential for the automated process to correct many of the weaknesses
           identified with the manual requisitioning process. Eighteen of the selected
           25 transactions were processed by the manual system and seven were processed
           by the automated system.

           We requested that DRMS and LESO provide supporting documentation for the
           148 transactions included in the DAISY-only and DAISY-CMIS mismatched sample.
           We also requested documentation for the 25 current transactions. Documents
           requested from LESO consisted of copies of DRMS Form 103,1 law enforcement
           agency justification documentation, and DD Form 1348-1A.2 Documents requested
           from DRMS consisted of DRMO-processed DD Form 1348-1As. We reviewed
           disposal turn-in document history reports from the DRMS Management Information
           Distribution and Access System, and item description reports from FED Log3 for
           each sampled transaction. The disposal turn-in document history contained the
           identification of the organization and the quantity of the item turned in, the date and
           the quantity sent, and where the item went.

           We performed this audit from September 2002 through April 2003 in accordance
           with generally accepted government auditing standards. Because of the ongoing
           DLA Internal Review audit, we limited the scope of our audit to a reconciliation
           of DRMS and LESO excess property transactions identified by GAO in the two
           data files provided to us. During the audit, we found that the CMIS and DAISY
           databases could not be validated and contained numerous errors. As a result, we
           determined that available documentation was insufficient to base statistical
           projections.

           Use of Computer-Processed Data. To achieve the audit objectives, we relied on
           computer-processed data contained in CMIS, DAISY, the Management
           Information Distribution and Access System, and the FED Log system. The lack
           of system controls and tests of the data files provided by GAO showed an error
           rate that cast doubt on the reliability of CMIS data. In addition, the lack of
           DRMO supporting documentation limited the reliability of DAISY data.
           However, we were able to rely on select DAISY data elements that confirmed the
           quantities of an item and the disposal turn-in document number assigned to the
           item when it was turned in as excess property. We verified those data elements
           by comparing them with disposal turn-in document data contained in the DRMS
           Management Information Distribution and Access System. The data reliability
           and validity problems we identified do not affect the conclusions in this report.

           Use of Technical Assistance. The Quantitative Methods Division of the Office
           of the Assistant Inspector General for Auditing of the Department of Defense
           developed a random sample plan for the audit team to achieve a 90 percent
           confidence for the transactions to be reviewed to meet the audit objectives.


1
    DRMS Form 103 is the request form used by the law enforcement agencies to request excess property.
2
    DD Form 1348-1A is the form used by LESO to grant permission for a DRMO to release the requested
    property to the law enforcement agency.
3
    FED Log is an automated supply program used by the government to locate part numbers, stock numbers,
     item names and numbers, shipping codes, freight data, classifications, characteristics data, and more.



                                                      12
      General Accounting Office High-Risk Area. The General Accounting Office
      has identified several high-risk areas in DoD. This report provides coverage of
      the DoD Inventory Management high-risk area.


Management Control Program Review
      DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
      and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
      August 28, 1996, require DoD organizations to implement a comprehensive
      system of management controls that provides reasonable assurance that programs
      are operating as intended and that evaluate the adequacy of the controls.

      Scope of the Review of the Management Control Program. We reviewed the
      adequacy of DLA management controls for processing DoD excess property
      transaction records associated with the 1033 Program from October 1996 through
      August 2000. We reviewed DLA self-evaluation applicable to those controls.

      Adequacy of Management Controls. As defined by DoD Instruction 5010.40, we
      identified a material management control weakness at DLA. DLA did not have
      adequate controls to ensure accountability of DoD excess property issued through
      the 1033 Program. The recommendations in this report, if implemented, will
      correct the material weakness identified by the audit. A copy of the report will be
      provided to the senior official responsible for management controls in DLA.

      Adequacy of Management’s Self-Evaluation. DLA did not identify
      accountability of DoD excess property issued through the 1033 Program as an
      assessable unit and, therefore, did not identify or report the material management
      control weakness identified by the audit.


Prior Coverage
      During the last 5 years, the General Accounting Office (GAO) has issued one
      report related to donation of excess DoD property. Unrestricted GAO reports can
      be accessed over the Internet at http://www.gao.gov.

GAO
      GAO Report No. GAO-02-75, “Defense Inventory: Control Weaknesses Leave
      Restricted and Hazardous Excess Property Vulnerable to Improper Use, Loss, or
      Theft,” January 25, 2002




                                          13
Appendix B. Manual and Automated
            Requisitioning Process
   During the period of October 1996 through August 2000, a manual process was
   used to request, approve, and issue excess DoD property under the 1033 Program.
   Neither LESO nor DRMS provided written guidance or procedures documenting
   the LESO manual requisitioning process. However, LESO personnel described
   the current manual requisitioning process. In addition, LESO personnel described
   the new, automated requisition processing system that is to replace the manual
   requisitioning process. A diagram of the manual and automated requisitioning
   processes is included in this appendix, following the description of the process.
   Manual Process. The manual requisitioning process begins with an authorized
   law enforcement agency representative traveling to a DRMO location to screen
   for excess DoD property that may be useful in the performance of their law
   enforcement activities. Law enforcement agencies receive authorization to
   participate in the 1033 Program from their respective State coordinator. To
   acquire excess property, the law enforcement agency representative completes a
   DRMS Form 103 (requisition request) and faxes it to their State coordinator for
   review. The State coordinator may approve, approve with modification, or reject
   the request. If the State coordinator approves the request, the DRMS Form 103 is
   faxed to LESO for review. LESO determines the reasonableness of the request on
   the basis of the law enforcement agency’s number of sworn officers, the historical
   amount of property the law enforcement agency received through the
   1033 Program, and the law enforcement agency’s justification for how the
   property will be used. Denied requisition requests are faxed back to the law
   enforcement agency through their State coordinator. For approved requisition
   requests, LESO enters the request into CMIS and prepares a DD Form 1348-1A
   for each requested item. The DD Form 1348-1A authorizes the DRMO to release
   a stated quantity of the property to the requesting law enforcement agency. For
   each DD Form 1348-1A, LESO assigns a requisition number and faxes the
   DD Form 1348-1A to the requesting law enforcement agency through the
   agency’s State coordinator. With receipt of the approved DD Form 1348-1A, the
   law enforcement agency representative travels to the DRMO where the property
   is located. The DRMO releases a specific quantity of property based on the law
   enforcement agency representative presenting the DD 1348-1A. This is when the
   DRMO enters the transaction into DAISY. Additional quantities of the approved
   property can be issued by a DRMO with the verbal approval of LESO. The State
   coordinator is not consulted by the DRMO or LESO when additional quantities
   are being considered for release. For the 10-month period of February 1 through
   December 6, 2002, nearly 78 percent of 1033 Program law enforcement agency
   requisition requests were made using the manual requisitioning process.

   Automated Process. In May 2002, LESO began implementing an automated
   requisition process, the DRMS and LESO automated system. Like the manual
   requisition process detailed above, an authorized law enforcement agency
   representative can screen available excess and surplus property at a DRMO.
   However, with the automated requisitioning process, the law enforcement agency
   representatives can also electronically screen excess property over the Internet


                                       14
utilizing the DRMS and LESO automated system. When a law enforcement agency
representative wants to requisition property, the representative enters a requested
quantity, and the automated system electronically populates the DRMS Form 103
(request). The law enforcement agency’s completed request form is electronically
marked for their State coordinator to review. Like the manual process, the automated
process allows the State coordinator to modify the request. If the State coordinator
approves the request, the system marks the request for LESO to review. LESO
personnel review the request for reasonableness, based on the same criteria used to
determine reasonableness for the manual process. In the automated system, the
justification for use of the property is a comment field on the DRMS Form 103, rather
than a separate document. When LESO approves a requisition, the automated system
updates CMIS and generates a DD Form 1348-1A for each requested item and
assigns a requisition number to each. The DD Form 1348-1A authorizes the DRMO
to release a stated quantity of property to the requesting law enforcement agency.
Upon receipt of the approval of the DD Form 1348-1A, the DRMO calls the law
enforcement agency to notify them that the property request has been approved and is
ready for pick-up. When the DRMO issues the property, the transaction is posted to
DAISY. State coordinators and law enforcement agencies can also check on the
status of property requests at any point in the approval process. For the 10-month
period of February 1 through December 6, 2002, about 22 percent of the requests for
property under the 1033 Program were made using the automated requisitioning
process.




                                   15
Appendix C. Defense Logistics Agency Internal
            Review Objectives
   DLA Internal Review was also performing a review of the operations of the
   1033 Program during the time of our audit. In order to avoid duplication, we
   coordinated with DLA Internal Review and, as a result, we limited the scope of our
   audit to a reconciliation of the discrepancies identified by GAO in the two data files
   provided to us. The DLA Internal Review audit plan for reviewing the management
   controls and procedures used by LESO to manage the 1033 Program included
   taking a random sample of current 1033 Program transactions. DLA Internal
   Review planned to issue a final audit report by July 2003. The DLA Internal
   Review was to cover:
          •   authorization procedures of program eligibility, access by program
              participants, memorandums of agreement between States and DLA,
              and CMIS access and accountability;

          •   procedures by which excess property is requested, to ensure that
              requests do not exceed requirements of program participants;

          •   item issuance procedures, to include quantity controls, demilitarization
              controls, reconciliation of CMIS and DAISY, and discrepancy
              resolutions procedures;

          •   1033 Program compliance procedures, to include verification of
              compliance by program participants, and resolution of compliance
              deficiencies; and

          •   other program issues, to include review of disposal turn-in document
              numbers, the record retention policy, and 1033 Program instructions
              and procedures.




                                       17
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
   Director, Law Enforcement Support Office
   Director, Defense Reutilization and Marketing Service

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




*Recipient of draft report.


                                          18
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        19
Defense Logistics Agency Comments




                      21
22
23
24
25
26
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberly A. Caprio
Tilghman A. Schraden
Kathryn L. Palmer
Walter S. Bohinski
Glen B. Wolff
Susan R. Ryan
Daniel L. Messner
Kristen A. Caskey
David H. Barton
Susann L. Cobb
